ELIZABETH L. JACOBS
Attorney at Law
Ford Building
615 Griswold
Suite 1125
Detroit, Michigan 48226

(313) 962-4090
elzjacobs@aol.com

Clerk of the Court February 17, 2020
Supreme Court of the United States

First Street, NE

Washington, DC 20543

Re: Skipper v Byrd
19-992
Consent to Filing of Amicus Briefs

Dear Clerk,

Pursuant to SCR 37.2, Respondent in the above-captioned case grants blanket consent to
amicus curiae briefs in support of either or of neither party.

Yours truly,

hits L tcobs

Attorney for Respondent

ce: Ann M. Sherman,
Deputy Solicitor General of Michigan
Benjamin Flowers,
Solicitor General of Ohio
